 




    U.S. CENSUS BUREAU
    High-Quality Maps and
    Accurate Addresses Are
    Needed to Achieve Census
    2020 Cost-Saving Goals




    FINAL REPORT NO. OIG-12-024-I
    MAY 10, 2012


    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    For Public Release




 
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington, D.C. 20230
May 10, 2012


MEMORANDUM FOR: 	             Robert M. Groves 

                              Director, U.S. Census Bureau 


FROM:                         Ron Prevost    #~
                             Assistant Inspector General for Economic
                              and Statistical Program Assessment

SUBJECT: 	                   High-Quality Maps and Accurate Addresses Are Needed to 

                             Achieve Census 2020 Cost-Saving Goals 

                             Fino/ Report No. 0/G-12-024-1

We are providing our final report on the effectiveness of the Census Bureau's MAF/TIGER
database (MTdb). Our objectives were to (I) review the bureau's progress toward achieving
the objectives of its $496 million 20 I0 geographic initiative (20 I0 MAF/TIGER Enhancement
Program), (2) evaluate the impact of various address-updating operations on the address file
and map database and identify trends that introduced error, and (3) review Census's
procedures for updating the map and address files.

We reviewed the bureau's progress on the MAF/TIGER Enhancement Program and found that
two of the objectives had not been fully realized: developing a measure to assess MTdb quality
at low levels of geography and enhancing geographic partner programs with tribal, state, county,
and local governments. Two other areas that require improvement are the number of
ungeocoded addresses (new addresses that are not linked to a location on a map) in the MTdb
and the current address-updating process, which accepts the most recent address changes
without adequate verification. To implement cost-saving goals for the 2020 census, the bureau
must address these issues.

We have received your official response and technical comments to our draft report. Where
appropriate, we have modified this final report based on the information provided to us. The
official response is included as appendix B. (We summarized your response and OIG comments
on page 12.) The final report will be posted on the OIG website pursuant to section 8L of the
Inspector General Act of 1978, as amended.

In accordance with the Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. We thank you and your staff for
the courtesies extended to us during this review. Please direct any inquiries regarding the
report to me at (202) 482-3052 or Carol Rice at (202) 482-6020.



Attachment

cc: 	 Mark E. Doms, Chief Economist, Economics and Statistics Administration
      Frank Vitrano, Associate Director for the 2020 Census, U.S. Census Bureau
      Pam Moulder, Senior Program Analyst, Economics and Statistics Administration
      Adam Miller, Audit Liaison, U.S. Census Bureau
                                          Report In Brief                                M AY 1 0 , 2 0 1 2



Background                             U.S. CENSUS BUREAU
The Census Bureau maintains a          High-Quality Maps and Accurate Addresses Are Needed to
database containing a complete list
of all living quarters (the master     Achieve Census 2020 Cost-Saving Goals
address file, or MAF) and geospatial
data (the topologically integrated     OIG-12-024-I
geographic encoding and referenc-
ing system, or TIGER) of the nation    WHAT WE FOUND
to use in all demographic and de-
cennial programs. The bureau’s         The 2010 geographic initiative’s efforts to produce an adequate measure
method of collecting and tabulating    to assess MTdb quality were unsuccessful. In addition, the program’s goal
decennial census data is to link       of updating address and map information from tribal, state, county, and
(geographically encode, or geo-
                                       local government partners was not fully realized. Both of these goals must
code) MAF addresses to TIGER.
                                       be met to implement a 2020 decennial census address-canvassing
The Census budget for maintaining      operation with reduced costs. Furthermore, 3.5 million ungeocoded
the MAF/TIGER database (MTdb)          records existed in the MAF as of June 2011, and that number is likely to
was $425 million for the period
leading up to the decennial census
                                       rise, as it did during Census 2010. Without maintenance of the MTdb by
(fiscal years 2000 through 2010).      continuous geocoding throughout the decade, the bureau will again have
Census spent another $496 million      to rely on an expensive end-of-decade operation. Finally, the MAF
on a 2010 geographic initiative: an    updating process of accepting more recent address changes without
8-year effort ending in 2010 to im-    adequate verification may result in a lower quality address list.
prove the accuracy of the MTdb.
Finally, in 2009, a $444 million op-
eration to visit and verify or add     WHAT WE RECOMMEND
every place a person lives or could
live was conducted. Totaling nearly        1. 	 Develop an MTdb measure for determining address list quality at
$1.4 billion, these combined efforts            a low level of geography that (a) provides a fair and equal
produced the 2010 decennial cen-                opportunity for targeting selection, (b) drives selection and
sus address list.                               planning decisions, and (c) is well-documented and verifiable.
For the 2020 census, the bureau
intends to continuously update the
                                           2. 	 Work with the Department to determine the feasibility of
MTdb, which will improve the ad-                improving methods of sharing MTdb information throughout the
dress lists and maps throughout the             decade with governmental entities (partners) to create a uniform,
decade and support a less costly                national address list.
targeted address-canvassing opera-
tion. Toward this effort, the bureau       3. 	 Investigate and remedy the exclusion of 500,000 ungeocoded
has introduced a $407 million 2020              address records, which had been designated as valid U.S. Postal
geographic initiative.                          Service delivery addresses, from the 2010 census.
Why We Did This Review                     4. 	 Conduct the necessary research, develop a proven methodology,
Our objectives were to (1) review               and allocate the necessary funds to continuously reduce the
the bureau’s progress on its 2010               number of ungeocoded records throughout the decade.
geographic initiative, (2) evaluate
the impact of various address-             5. 	 Develop and implement quality indicator tools, including use of
updating operations on the MTdb                 administrative records, to ensure that updates to the MAF are
and identify trends that introduced             accurate.
error, and (3) review Census’s pro-
cedures for updating the map and
address files.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                  OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 

Findings and Recommendations ....................................................................................................................3
 

   1.  The 2010 Census Geographic Initiative Fell Short, Raising Concerns About Cost-


       Saving Measures for the 2020 Census ...............................................................................................3
 

       A.  The measure to assess MTdb quality was not developed but is needed to 

           reengineer the next decennial..........................................................................................................3
 

       B.  Strained partner relations and Title 13 restrictions could hamper efforts to maintain 

           an updated, accurate address list throughout the decade .........................................................5
 

   II. 	 Census Relied on Expensive End-of-Decade Operations to Validate Millions 

         of Postal Service Addresses in the MTdb ........................................................................................7
 

   III.  Census’s Process of Updating Addresses by Using the Most Recent Address May 

         Result in a Lower Quality Address List .............................................................................................8
 

Recommendations ......................................................................................................................................... 11

 
Summary of Agency and OIG Comments................................................................................................ 12

 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 13
 

Appendix B: Agency Response ................................................................................................................... 14

 




                                                                                                                         COVER: Detail of fisheries pediment, 
                                                                                                            U.S. Department of Commerce headquarters, 
                                                                                                                    by sculptor James Earle Fraser, 1934 
  DEPARTMENT OF COMMERCE
U.S.                                                                                          OFFICE OF INSPECTOR GENERAL


Introduction 

As the federal government’s largest statistical agency, the U.S. Census Bureau manages a full
range of demographic programs—including the decennial census, the American Community
Survey (ACS), and other population and income surveys—that drive major statistical programs
across multiple federal agencies. Results of its surveys and programs serve as resources for
determining how more than $400 billion of federal funds are distributed annually and how seats
in the U.S. House of Representatives are distributed every 10 years and for a broad range of
uses by businesses and the public.

Essential to executing this work, the bureau maintains a database that contains a complete list
of all living quarters (referred to as the master address file, or MAF) and geospatial data1
(referred to as the topologically integrated geographic encoding and referencing system, or
TIGER) of the nation to use in all Census Bureau demographic and decennial programs. The
bureau’s method for collecting and tabulating decennial census data is to link (geographically
encode, or geocode) MAF addresses to TIGER.

The MAF/TIGER database (MTdb) is the backbone of Census demographic operations and is
critical to implementing bureau surveys and generating data products (i.e., Census’s
demographic results are collected at the household level, which allows data users to answer any
Figure 1. Multiple Sources Update the MTdb          number of questions, such as the number
                                                    of school-age children in the nation, in a
                                                    particular city, or even in a particular
                                                    neighborhood). Most demographic surveys,
                     Jurisdiction 
                     (boundary)                     including the decennial census, have unique
                       updates                      requirements that determine the list of
                                         Local      addresses extracted from the MTdb.
         Postal 
                                                               government 
        Service 
        address 
                                                                  map &        Figure 1 illustrates how multiple sources
                                                                 address 
        updates
                                                                 updates       update the MTdb to produce the lists of
                                                                               addresses used to collect household
                                                                               information. Because there is no single
                                       MTdb                                    source for updating data in the MTdb, the
       Decennial                                                               bureau must coordinate with the providers
                                                               Census field 
      census and 
                                                                operation      of multiple data sources (referred to as
     survey (e.g., 
     ACS) map & 
                                                                  map &        partners), most of which are outside of
                                                                 address 
        address 
                                                                 updates
                                                                               Census’s direct control, or conduct its own
        updates                                                                operation to verify and update addresses
                                                                               and maps. Since each partner collects data
                                      Decennial 
                                      Census file                              for a different purpose and has different
                                                                               quality control practices, changes (e.g.,
                                                                               revisions in housing unit addresses, roads

                                                            
1
  The geospatial data are displayed graphically as maps. Therefore, throughout this report, we refer to the 
geospatial data as “maps.” 


FINAL REPORT NO. OIG-12-024-I                                                                                            1
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL

 and highways, and government boundaries) come to the bureau with varying levels of
precision.

The Census division charged with maintaining the MTdb had a $425 million budget spread out
across the period leading up to the decennial census (fiscal years 2000 through 2010). The
division spent an additional $496 million on a 2010 geographic initiative (MAF/TIGER
Enhancement Program), an 8-year effort ending in 20102 that sought to improve the accuracy of
the MTdb. Finally, in 2009, the bureau initiated a $444 million operation to visit and verify or
add every place a person lives or could live. Totaling nearly $1.4 billion, these combined efforts
produced the 2010 decennial census address list.

To reduce costs for the 2020 census, the bureau intends to continuously implement a more
robust update of the MTdb. A continuously updated, accurate MTdb would improve the
address lists and maps throughout the decade and support a less costly targeted address-
canvassing operation. To support this effort, the bureau has introduced a $407 million 2020
geographic initiative (Geographic Support System).

This report presents the results of our evaluation of the Census Bureau’s efforts to maintain
updated, accurate addresses and maps of all living quarters.3 Our objectives were to

       1.		 review the bureau’s progress toward achieving the objectives of its $496 million 2010
            geographic initiative,

       2.		 evaluate the impact of various address-updating operations on the MTdb and identify
            trends that introduced error, and

       3.		 review Census’s procedures for updating the map and address files.

The purpose of our evaluation is to inform the next decennial. Additional information on our
scope and methodology can be found in appendix A.




                                                            
2
     Some limited funding for one of the objectives was planned through FY 2012.  
3
     The bureau defines living quarters as “any site where people live, stay, or could live.” 


FINAL REPORT NO. OIG-12-024-I                                                                                    2
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

1. The 2010 Census Geographic Initiative Fell Short, Raising Concerns About
   Cost-Saving Measures for the 2020 Census

Of the nearly $1.4 billion spent on Census geographic programs over the past decade, $496
million was for the 2010 geographic initiative. The main objective of this program was to align
all street features to GPS map coordinates—a prerequisite for collecting coordinate locations
of residential structures during the address-canvassing operation. By aligning streets and
residential structures to GPS, the bureau sought to improve the accuracy of the coordinate
information in the MTdb. By 2008, the streets in every county in the United States were aligned
to GPS map coordinates. The bureau accomplished two other objectives: integrating the MAF
and TIGER databases in a single Oracle database and developing and implementing, through FY
2006, a field operation to capture addresses in predominantly rural areas of the nation where
city-style addresses generally are not used for mail delivery (referred to as the Community
Address Updating System).4 However, the remaining two objectives—improving MAF and
TIGER quality metrics and developing and enhancing geographic partnership (tribal, state,
county, and local governments) programs throughout the decade—fell short.

Leading up to the next decennial census, the bureau received approval in FY 2011 for a 2020
geographic initiative with three overall goals (continual spatial feature updates, improved
address coverage, and enhanced quality assessment and evaluation) for a total expected life-
cycle cost of $407 million. The initiative contained several new as well as some familiar 2010
objectives (see table 1) that aim to address last decade’s shortfalls.

A. The measure to assess MTdb quality was not developed but is needed to reengineer the
   next decennial

An objective of the 2010 geographic initiative was to implement a comprehensive plan for
periodic MAF/TIGER evaluation that would identify areas where the address list was missing
housing units or was outdated. However, the measure developed to achieve this goal (National
Estimate of Coverage) evaluated MTdb quality at the state level. This $44 million effort was not
at a low enough level of geography to identify specific areas requiring improvement. To ensure
a complete and accurate address list for 2010 decennial, the bureau implemented a $444 million
address-canvassing operation. This operation sent temporary census workers out to
systematically traverse every street in the nation to add, delete, and correct addresses for
places a person lives or could live and correct maps to ensure their completeness and accuracy.




                                                            
4
  In FY 2007, the Community Address Updating System was temporarily stopped because of funding constraints. 
The program resumed in FY 2010. 


FINAL REPORT NO. OIG-12-024-I                                                                                  3
  DEPARTMENT OF COMMERCE
U.S.                                                                                  OFFICE OF INSPECTOR GENERAL

Table 1. Census 2010 and 2020 Geographic Initiative Objectives and Status
2010 Geographic Initiative ($496 million)                      2020 Geographic Initiative ($407 million)
MAF/TIGER Enhancement Program 	                                Geographic Support System 	

                                                               Continual spatial feature updates: add new or improve
Correct the street center line location for every county       existing street attributes (e.g., street names and address
in the nation.                                                 ranges) and correct and improve spatially inaccurate
                                                               streets.

Objective met—all counties were completed as planned.          Ongoing.

Create a modern processing environment by integrating
                                                               No corresponding goal.
the MAF and TIGER databases.
Objective met—Commercial off-the-shelf software
combined the two databases.
                                                               Improved address coverage: improve address list using
Develop and enhance geographic partnership programs.
                                                               updates from state, local, and tribal governments.
Objective partially met—a Web-based program for
partners to upload data was deployed, but strained             Ongoing.
partner relations exist.
Implement the Community Address Updating System                Improved address coverage: update the address
Program.                                                       inventory not covered by the U.S. Postal Service.
Objective met.—the Community Address Updating
                                                               Ongoing.
System Program was developed and implemented.
                                                               Enhanced quality assessment and evaluation: assess
                                                               address quality to target areas for update and refine the
Improve quality metrics.                                       address universe; assess street location and attribute
                                                               accuracy from various sources to guide updating
                                                               decisions.
Objective not met—the measure developed was unable
                                                               Ongoing.
to assess MTdb quality.
                                                               Improved address coverage: assign locations to new
                                                               addresses so they can be used in censuses and surveys,
No corresponding goal.                                         develop and implement methods to update the group
                                                               quarter inventory of addresses, and update and maintain
                                                               the Puerto Rico address list.
                                                               Ongoing.
Source: OIG analysis of U.S. Census Bureau information



A major reengineering effort for the 2020 census is to shift from a complete address-canvassing
operation to a targeted operation. These efforts are in line with prior OIG recommendations:
in Census 2010: Final Report to Congress5 we recommended that the bureau avoid a large-scale
end-of-decade field operation by continuously updating the address lists and maps. A targeted
operation of 5 to 20 percent of the addresses, according to the bureau, could result in a savings
of between $373 and $442 million.6 These savings could be even greater—for the bureau and

                                                            
5
   U.S. Department of Commerce Office of Inspector General, June 27, 2011. Census 2010: Final Report to Congress,

 
OIG‐11‐0030‐I. Washington, D.C.: Department of Commerce OIG.
 

6
   U.S. Census Bureau, G.S.S. Initiative Cost Reduction (PowerPoint presentation).
 



FINAL REPORT NO. OIG-12-024-I                                                                                           4
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

local governments—if an accurate address list also               LUCA is a legislatively mandated
results in a smaller end-of-decade Local Update of               decennial census geographic
Census Addresses (LUCA) program.
                                                                 partnership program that invites
The decision to conduct a targeted operation                     local, state, and tribal governments
hinges on establishment of measures that can
                                                                 to review and correct Census’s list
determine address list quality at low levels of
geography (such as the block or census tract7 level).            of residential housing units and
Given the lack of success in developing a usable                 group quarters addresses, which
MTdb assessment measure last decade, the bureau
                                                                 will be used to deliver
has reinstituted the objective in the 2020
geographic initiative. In addition to developing a               questionnaires in their jurisdiction.
measure, the bureau must ensure that stakeholders
accept the measure and are confident that it
accurately represents the existing housing inventory. Essentially, the bureau is determining
which areas have an accurate inventory and require no additional fieldwork—a decision that
could raise local, state, and congressional concerns about quality and fairness. We recommend
that the bureau develop a measure that

       •	 provides a fair and equal opportunity for an area to be included or excluded in a 

          targeted address-canvassing operation, 

       •	 drives the selection and planning decisions for a targeted address-canvassing operation,
          and
       •	 is well-documented and verifiable.

B.	 Strained partner relations and Title 13 restrictions could hamper efforts to maintain an
    updated, accurate address list throughout the decade

The 2010 census geographic initiative allocated $43.7 million in funds last decade to develop
and enhance geographic partnership programs. The bureau stated that the delivery of a Web-
based application that managed partner data—allowing Census staff to gather information on
partners, post communications via a secure site, and permit partners to download/upload data
(such as boundary changes) to a secure server—satisfied this goal. Although the Web
application was delivered on schedule, it appears that the primary goal, to develop and enhance
geographic partnership programs, was not fully achieved. During interviews, staff from 6 of the
12 Census regional offices who work with the partners unanimously reported partner
dissatisfaction, specifically citing the following:

       •	 rigid schedule of Census requests,



                                                            
7
  Census tracts are small, relatively permanent statistical subdivisions of a county; boundaries normally follow 
visible features but may follow governmental unit boundaries. As of the 2010 census, the bureau tabulated 73,057 
census tracts in the United States. 


FINAL REPORT NO. OIG-12-024-I                                                                                   5
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

       •		 lack of notice of upcoming projects, thereby not allowing partners to properly allocate
           resources (partners indicated they would like to know about Census requirements
           before the beginning of the fiscal year),
       •		 incompatibility of Census and partner electronic data formats, and
       •		 perception that Census does not fully use partner data.

Partners are often motivated to participate in the bureau’s geography programs, because they
realize the benefits of ensuring that their jurisdictions are correctly counted. For example, the
number of children in low-income families is one basis for allocating federal funds to each
school district, so it is imperative that this number is accurate. However, partner dissatisfaction,
in addition to budget constraints, may lead to decreased participation and the loss of “free”
updates (only in that there are no field data collection activities and cost) to the bureau.

Currently, the sharing of address lists between Census and tribal, state, county, and local
governments, and even other federal government agencies, is limited. With a few very narrow
exceptions, Title 13 forbids the Census from disclosing information furnished by respondents
and imposes significant penalties—including criminal penalties—for violation of these
confidentiality requirements.8 Consequently, although partners share addresses with Census,
Census is restricted by law from reciprocating with many partners. The Census Address List
Improvement Act of 19949 did amend Title 13 to provide a limited exception to these
restrictions for local governments. That act authorized the LUCA program, which allows two-
way sharing of addresses information between the bureau and officials designated by local
government units.10 However, the LUCA program has several requirements. The bureau must
publish address standards, develop and publish a timeline for reviewing submissions, and
provide a response back to participants. In addition, the Office of Management and Budget is
required to implement an appeals process through which address-sharing disputes among the
bureau and participants may be resolved. The 2010 LUCA program occurred from January
2007 through March 2010. Although it may require legislative action, a more informal method
of two-way sharing of address lists earlier in the decade could improve address updating and
geocoding as well as the cost-effectiveness of Census’s demographic censuses and surveys
throughout the decade.

The 2020 geographic initiative goal to use updates from state, local, and tribal governments
supports yearly processing of partner data and creating a Web-based interface and new
software application to accept and upload various partner formats. However, to move toward a
continuously updated and more accurate MAF, we suggest that Census determine the feasibility
of sharing MTdb information throughout the decade with governmental entities (partners) to
create a uniform, national address list. If the 2020 census cost reduction strategy is to be
realized, the bureau must ensure the MTdb is continually updated with partner data,
acknowledging the risk that acquiring this data may be more challenging if partner resources
diminish.

                                                            
8
  13 U.S.C. § 9.
 

9
  Pub. L. No. 103‐430 (1994).
 

10
    See 13 U.S.C. § 16.
 



FINAL REPORT NO. OIG-12-024-I                                                                        6
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


II. Census Relied on Expensive End-of-Decade Operations to Validate Millions
    of Postal Service Addresses in the MTdb

Allocating population and housing to the correct location is the                 Figure 2. Impact of End-of-
bureau’s way of satisfying its constitutional mandate to count                   Decade Activities on 10
people where they live for purposes such as redistricting and                    Million Ungeocoded Records
apportionment. Geocoding is the process by which housing units
are associated with a location on the ground. Ungeocoded
records occur in the MTdb when a mailing address cannot be                                10 million
linked to a location on a map. Ungeocoded addresses are
excluded from the decennial census and some bureau survey
samples, increasing the likelihood that those housing units will not                        (March 2008)
receive a questionnaire.

As shown in figure 2, the Census Bureau informed us that 10
million ungeocoded residential addresses existed in the MAF in
March 2008. We tracked the volume of those ungeocoded
records throughout the remainder of the decennial. At the end of                           6 million
the 2010 census operations, after all housing units were
accounted for, 500,000 of the 10 million records identified in 2008
                                                                                   After local government updating 
remained ungeocoded in the MTdb. At the same time, semi-                                       operation 
annual updates from the Postal Service were adding more                                     (October 2008)
ungeocoded records to the MTdb. For some of these records, a
valid, duplicate record may have existed in the MAF. For example,
we previously found that Postal Service addresses may use a
residential complex name rather than a house number/street
name address (e.g., ABC Apartments instead of 10 Main Street).11
In the MTdb, house number and street name addresses are                                  3.3 million
required to electronically match an address to the map.

However, it is unlikely that 500,000 duplicate records exist. To                    After 100% address canvassing
determine other possible reasons for why these housings units                              (September 2009)
were not accounted for in the MTdb, we compared the records
against a number of demographic characteristics—such as
population density, population and housing changes between 2000
and 2010, ethnic composition, vacant housing units, median
income, and unemployment rate—but did not find any evidence
that strongly predicted where or why ungeocoded records were                                500,000
likely to occur. We suggest that the bureau investigate the
exclusion of these records, which had been designated as valid
                                                                                      After all Census operations 
Postal Service delivery addresses, in the final decennial housing                         (September 2010)
count. Identifying characteristics specific to these records would
                                                            
11
  U.S. Department of Commerce Office of Inspector General, October 17, 2008. Census 2010: Dress Rehearsal of 
Address Canvassing Revealed Persistent Deficiencies in Approach to Updating the Master Address File, OSE‐18599. 
Washington, D.C.: Department of Commerce OIG. 


FINAL REPORT NO. OIG-12-024-I                                                                                   7
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

facilitate developing a methodology to geocode these and similar types of records that will
continue to accumulate in the MTdb.

Census cannot rely on end-of-decade operations to geocode addresses for the 2020 census. As
the 10 million ungeocoded records identified in
2008 steadily decreased, the updating activities   For the 2020 census, the bureau
continued to add more ungeocoded records to        must maintain the MTdb
the MAF. Consequently, as of June 2011, there
were 3.5 million ungeocoded records. If steps are  throughout the decade by
not taken to continuously improve geocoding        continuously geocoding—or
throughout the coming decade, we expect the        address lists may become
number of ungeocoded records to rise as it did
during the last census. For the 2010 census, 
     inaccurate.
funding constraints canceled geocoding 

operations mid-decade, resulting in 10 million 

ungeocoded records 2 years before the decennial census. 


For the 2020 census, the bureau must maintain the MTdb throughout the decade by 

continuously geocoding—or address lists may become inaccurate, and the bureau will again 

have to rely on expensive end-of-decade operations, abandoning plans to reengineer the census 

and realize costs savings. Targeted address canvassing can only occur if the MTdb is updated 

and accurate. Census should conduct the necessary research, develop a proven methodology, 

and allocate the necessary funds to continuously improve address quality and reduce the 

number of ungeocoded addresses throughout the decade. 


III. Census’s Process of Updating Addresses by Using the Most Recent Address
     May Result in a Lower Quality Address List

In our review of the procedures for updating the MTdb, we found that when different
operations submit changes to the address list, Census may replace a valid address in the MTdb
with one that is invalid or of lower quality. This occurs because Census accepts the latest
update without determining the quality of the change. Consequently, recently collected flawed
address information may replace an existing valid address.

Our review of a 2008 Census test found that changes made by a later operation were
sometimes incorrect.12 Specifically, we reviewed the actions (e.g., verify, delete, add, duplicate,
uninhabitable, or nonresidential) taken by several operations for nearly 19,000 addresses from
the North Carolina test site and found examples where the final action was incorrect. To
analyze the impact of this during the 2010 census, we again compared the actions made to an
address during the address-canvassing operation with an ACS update file. The files contained




                                                            
12
 Commerce OIG, Census 2010: Dress Rehearsal of Address Canvassing Revealed Persistent Deficiencies in 
Approach to Updating the Master Address File. 


FINAL REPORT NO. OIG-12-024-I                                                                            8
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

the results of the two field operations conducted at the same approximate time, during the
months of March through July 2009.13

We were unable to compare identical addresses by matching the address identification
number—the ACS update file contained only the address identification number (not the
complete address) with a designation of the change made (e.g., designating a residential address
as nonresidential). Although our address-canvassing file was limited to 599 counties, we
identified 2,457 address records contained in both files. For those addresses, we compared the
actions taken by the address-canvassing staff with the actions taken by the ACS staff, to
determine whether two field operations conducted at the same time could have differing
results. Our analysis found agreement on the designation of the address only 56 percent of the
time (e.g., both designated the address as nonresidential). We were unable to assess the level of
agreement for 30 percent of the addresses because of variations in the codes used for the two
operations. For the remaining 14 percent, our analysis found clear disagreement—meaning that
address canvassers verified the address as residential, while ACS staff deleted or changed the
address status to some other nonresidential classification (see table 2).

                 Table 2. Comparison of Two Census Designations for the Same Addresses
                  Designation by     Designation by
                                                                            Percentage
                  Address-           American
                                                         Comparison         (Number of
                  Canvassing         Community
                                                                            Addresses)
                  Staff              Survey Staff
                                     Delete,
                 Valid residential   uninhabitable,                             14%
                                                            Disagree
                 address             nonresidential,                           (346)
                                     group quarter
                 Delete,             Delete,
                                                                                56%
                 uninhabitable,      uninhabitable,          Agree
                                                                              (1,380)
                 nonresidential      nonresidential
                                                            Unable to           30%
                 Other               Other
                                                             assessa           (731)

                                                                                              100%
                                                                         Total
                                                                                             (2,457)

                 Source: OIG
                 aDifferences between the two operations made it difficult to assess the level of

                 disagreement for some status codes. For example, address canvassing identified
                 duplicates as a result of visiting every housing unit; ACS visited housing units based
                 on a targeted list of nonresponding housing units and did not identify duplicate
                 addresses. Also note that ACS updates were not entered into the MTdb because a
                 moratorium on updates was enacted in preparation for the 2010 census.


                                                            
13
   Address canvassing occurred between March 30, 2009, and July 10, 2009; ACS (time of interview operation) took 
place from March 1, 2009, through May 30, 2009. 


FINAL REPORT NO. OIG-12-024-I                                                                                  9
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

We reviewed 80 of the 346 addresses that showed clear disagreement. We do not have
enough information to conclude which operation was more accurate, or why; we found that 50
addresses were included in the 2010 census (i.e., were valid housing units) while 30 were not.

Although these findings cannot be projected to the entire MTdb, they clearly indicate that field
operations produce conflicting information, some of which may be incorrect. Moving forward,
the bureau needs to confirm that any update made to an address is of better quality than the
information currently existing in the MTdb.

Census is considering implementation of some quality indicators for addresses that might
eliminate automatically accepting the most recent updates. Specifically, the following questions
would be answered before a change to an existing address was made:

       •		    Is the existing MTdb address in a valid Postal Service format (mailable)?
       •		    Is the Postal Service delivering mail to the address (deliverable)?
       •		    Are field staff able to navigate to, and identify/distinguish, the address (locatable)?
       •		    Is the address linked to a location on the TIGER map (geocodable)?

We support this effort. However, we suggest that the bureau consider an additional indicator:
verifiability. More specifically:

       •		 Is the address a valid address in recent Census surveys or other government 

           administrative records (verifiable)? 


Both the bureau and OIG have identified administrative records14 as a valuable tool for future
Census operations, and we believe address information contained in these data files could
indicate the quality of an MTdb record. The Census Bureau has been using one form of
administrative record from the U. S. Postal Service since 1995 to provide new addresses for the
MAF. Data collected by Census and other agencies provide a complementary universe of
information: addresses where individuals indicate they live and/or want their mail directed.
Administrative records could be used to verify MAF records, leveraging the general public’s
notification (validation) of their residence to the government.

We suspect shifting from a last-in model will likely encounter some resistance for fear that an
address will be missed. Consequently, the long-standing practice of accepting all field changes as
fact may be difficult to overcome. However, to prevent inaccurate information from replacing
accurate information, quality standards must be implemented.

 




                                                            
14
  Data collected for the administration of programs and provisions of services by federal, state, and local
governments and commercial entities.


FINAL REPORT NO. OIG-12-024-I                                                                                 10
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL


Recommendations
We recommend that the Director of the Census Bureau take the following actions:

    1.		 Develop an MTdb measure for determining address list quality at a low level of
         geography that (a) provides a fair and equal opportunity for targeting selection, (b)
         drives selection and planning decisions, and (c) is well-documented and verifiable.
    2.		 Work with the Department to determine the feasibility of improving methods of sharing
         MTdb information throughout the decade with governmental entities (partners) to
         create a uniform, national address list.
    3.		 Investigate and remedy the exclusion of 500,000 ungeocoded address records, which
         had been designated as valid U.S. Postal Service delivery addresses, from the 2010
         census.
    4.		 Conduct the necessary research, develop a proven methodology, and allocate the
         necessary funds to continuously reduce the number of ungeocoded records throughout
         the decade.
    5.		 Develop and implement quality indicator tools, including use of administrative records,
         to ensure that updates to the MAF are accurate.
 




FINAL REPORT NO. OIG-12-024-I                                                                      11
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments 

In its April 30, 2012, response to our draft report, the Census Bureau concurred with four of
our recommendations and has taken some preliminary actions to address them. Although the
bureau generally agreed with recommendation 2, it stated that this recommendation warranted
further discussion within the Census Bureau and with the Department of Commerce rather
than describing preliminary actions. In addition, the bureau stated that recommendation 3
inaccurately reported that 500,000 housing units were missed during the decennial census. We
did not say that the housing units were missed but instead that 500,000 valid Postal Service
address records were not included in the 2010 census. We recognize that the addresses may
have duplicated an existing MTdb record that was counted, may have been demolished or
destroyed during the decennial census time frame, may have been excluded due to Postal
Service error, or may have been missed—hence our recommendation to investigate why the
records were not geocoded during the 100 percent address-canvassing operation or included in
the final decennial housing count. The bureau’s response is included as appendix B.

In a separate document, the bureau provided a number of technical comments that we
addressed in the report where appropriate. It also discussed the accomplishments of the 2010
MAF/TIGER Enhancement Program’s (MTEP’s) five objectives. MTEP had many successes and
improved the overall quality of the MTdb, but it did not develop a measure to assess MTdb
quality at low levels of geography.




FINAL REPORT NO. OIG-12-024-I                                                                  12
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objectives of this evaluation were to (1) review the bureau’s progress toward achieving the
objectives of its $496 million 2010 geographic initiative, (2) evaluate the impact of various
address updating operations on the MTdb and identify trends that introduced error, and
(3) review Census’s procedures for updating the MTdb files.

We met with and interviewed various Census headquarters personnel with broad and varied
MTdb responsibilities, including those involved in its design, development, testing, and
operation. We visited the Philadelphia regional office staff and conducted telephone interviews
with geographers at five other regional offices. We also observed the batch update of the U.S.
Postal Service’s Delivery Sequence File and the interactive update of information obtained from
Census’s Boundary and Annexation Survey operation.

We obtained and reviewed the policies and procedures for updating the MTdb system, the
controls used to protect data accuracy and integrity, and related security documentation. We
did not test the operational effectiveness of security controls and policies. Rather, we reviewed
the documentation for reasonableness and adequacy.

To evaluate the impact of various address-updating operations on the MTdb and to identify
trends that introduced error, we requested and analyzed nine data files, including files
containing MTdb updates from various 2010 census operations and Postal Service update files.
Data files from two 2010 decennial ad hoc activities15 did not meet data reliability standards
and, therefore, were not used.

Early in our evaluation, Census informed us that many of the 2010 geographic initiative
(MAF/TIGER Enhancement Program) project managers were no longer with the bureau and
that producing extensive documentation about the initiatives would be difficult and time-
consuming. Given this constraint, we reviewed the information that was provided to us and
focused primarily on the areas of the initiative that were not fully implemented.

We performed the evaluation at Census Bureau headquarters in Suitland, Maryland, and the
Philadelphia regional office. We conducted this review from January 2011 to October 2011,
under the authorities of the Inspector General of 1978, as amended; Department Organization
Order 10-13, August 31, 2006, as amended; and in accordance with the Quality Standards for
Inspection and Evaluation (January 2011) issued by the Council of the Inspectors General on
Integrity and Efficiency.


                                                            
15
   One file came from the Address‐Canvassing Delete Check operation that was implemented during the 
nonresponse follow‐up operation. This operation determined whether address canvassers deleted housing units 
located in the wrong Census block but did not subsequently add the units back into the correct Census block. The 
second data file was created from documents collected during the address‐canvassing operation, when technology 
barred adding housing units or correcting deleted housing units during quality control activities.  


FINAL REPORT NO. OIG-12-024-I                                                                                 13
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Economics and Statistics AdmlnistTatlon
                                                      U .S . Census Bureau
                                                      Wastnni)IOn, DC 20233-0001
                                                      OFFICE OF ThE DIRECTOR




       APR 3 0 2012


       ME\10RANDUM FOR            Ann Eilers
                                  Principal Assistant inspector General for Audit and evaluation

      Through:                    Mark E. Doms     ~
                                  Cbjcf Economis:wt

      From:                       R?bcrt M. Orov              iM ~
                                  Drrcctor                    ffl
      Subject:                    Draft Rep<m: High-Quality Maps and Accurate Addresses Are
                                  Needed to Achieve Census 2020 Cost-Suving Gauls


      The attached comments are in response to your draft audit rcp011, High-Quality Maps and
      Accurate Addresses Arc Needed to Achieve Census 2020 Cost-Saving Goals. 'lhc U.S. Census
      Bureau appreciates the comments 1md recommendations developed by tho Office of the Principal
      Assistant inspector General in producing this audit repo11.

      Attachment

      cc: US/ F.A




      USCENSUSBUREAU
                                                                                        www.cmsu.s.gov




FINAL REPORT NO. OIG-12-024-I                                                                              14
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL



                                            O IG Draft Report
                         fligb-Qua lity Maps :And Accurate Addresses Arc Needed
                                to Achieve CcnBus 2020 Cost-Saving Goals

                                      U.S. Ccnsu~ Bureau Response

     Tbe Census Bureau has reviewed the Depmtmcnt of Commerce, Office of1nspcclor General
     (OlG), Draft Report cntiUed "U.S. Cans11s Hureau High Quality Maps and Accurate Addresses
     Are Needed 10 Achieve Census 2020 Co.w-Savlng Goals." dated March 23, 20 12. We
     acknowledge the goals of the draft report, ugr..:~: with many o[lhe points raised in the rcpott, and
     agree Utnt the report contributes to future directions in improving addresses that suppo1t cost
     avoidance goals of tile 2020 Census.

     There is, however, some infonnation Lhal requires funher clarification, and there are other points
     that require correction. Our commen1s follow:

     Comments Specific to the R cconunentlntiuns:

     Recommendation 1: Develop an MTdh measure for determining address list quality at a
     low level of geography that (u) JlrOvides u fair aod equal opportunity for t argeti ng
     selection, (b) drives selectio n nnd phmniog dccisioos, aud (c) is well-d ocumented and
     ' 'criflllble.

     Census Bureau Response: The Census Bureau agrees wTtb this recommendatjon. As part of
     the Geogmphic Support System Jnitjative. the Geography Division fonncd ten working groups to
     support research and development activities. The Quality. Assessments, and Evaluations
     Working Group recommended 1hc development of Quality Indicators to measure the quality of
     the address list. Ao !mplememation Project Team is currently developing the criteria and
     requirements l!JiSOCiated with the Qual ity Indicators. Ln addition, after a thoro ugh analysis, the
     Geography Division decided to track the Quality Indicators at the census tracl level, a low level
     of geography that can provide .s uflicicnl deta il to support decision-making.

     RctOUllUcndation 2: Work with the DcJlartment to detcrmi oc tbc fcasibjJity of improving
     methods of sharing MTdb infonnat ie>n throughout the decade with gove rnm ent al coli tic.~
     (or partner s) to create a uniform, national address lis t.

     Census Bureau Response: The Census Bureau appreciates this recommcndation and believes it
     warrants further discussion within the Census Bureau and with the Department of Commerce.




FINAL REPORT NO. OIG-12-024-I                                                                               15
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL




                                                                                                      2

  Recommendation 3: Inves t igate aud t"emcdy the exclusion of 500,0 00 ungcocod ed a ddress
  records, which ha d been dt-si~:nntcd as valid U.S. l'ostnl Service d elivery nddres~e§, from
  t he fina l hnusing count fo r the 2010 C ens us.

  Census Bureau Response: It is inaccurate lo stme that these 500,000 housing units were missed
  as part of the decennial census. Ther·c are many reasons an addJCss may be uogcocoderJ in the
  MTdb, including m issing features. S1roct names. ~md/or address ranges. The housing units
  these addresses represent may be pfcscnt within the MTdb as non-city style addresses. such as
  location descriptions, w here a city-style address could not be obtained.

  T he Censu~ Bureau agrees that we need 10 analy2.1! wtgcocoded addresses within the MTdb. We
  are in the process of implementing the MAF(IlGER Address Gcocoding (MT/\0) program to
  continuously review and el iminate ungeocoded addresses throughout the decade.

  Hccommen datioo 4: Co nduct the necessary r csea rcll, d evelop a proven methodology, and
  ullocatc tbc ncccssnry fuu ch tr1 continuo us ly redu ce the u umllcr of uo geocod ed records
  throu~;hout th e decade.


  Censu s Bureau Resp onse: The Censu.~ Bureau agrees with this recommendation. As
  mentioned above, we 8 l'C in the process of implementing the MT/\0 program to continuously
  review nnd eliminate ungcocodcd addresses throughout U1e decndc.

  Recommcodatioo 5 : Develop a nd implement quality indicatOJ' Iools. including use or
  ad min istrlltive r ecords, to c:ns ur e tbat updates to t·be MAF arc accurnte.

  Cens us Bu reau Response: 1l1e Census Hureau agrees with this reconunendntion. As
  mentioned above, an Implementation Project Team is currently developing the criteria and
  requirements associated with Quality Indicators. We will consider the recommendation to
  include one additional indicmor (verifiable) to dctcnnioc if an address is valid in recent Census
  surveys or other government administrative records.




1200100-119 





FINAL REPORT NO. OIG-12-024-I                                                                             16
